                                                                                      June 13, 2014

Mr. Steven L. Arnold
Director of the Board, Ecolog USA
Ecolog, Inc.
9595 Six Pines Drive, Suite 8210
The Woodlands, TX 77380


Dear Mr. Arnold,

The Office of the Special Inspector General for Afghanistan Reconstruction (SIGAR) was established
by Congress to prevent and detect waste, fraud, and abuse in programs and operations relating to
the reconstruction of Afghanistan. As part of an initiative undertaken by my office to combat human
trafficking, SIGAR special agents have been participating in enforcement sweeps and conducting
interviews with Third Country National (TCN) workers employed by the U.S. military in Afghanistan.

SIGAR agents in Kandahar, for example, recently uncovered an illicit scheme involving a Sri Lankan
supervisor working on a U.S. base who was extorting cash payments from his TCN subordinates. As a
direct result of SIGAR’s inquiry, that supervisor was fired and deported, and the company involved
reimbursed the extortion victims. SIGAR agents also have been conducting inquiries relating to
reports of human trafficking at multiple U.S. military bases in Afghanistan.

Given SIGAR’s ongoing efforts, I was disturbed to learn that some Department of Defense (DOD)
contractors, subcontractors, and their recruiters allegedly may be engaging in or knowingly
permitting the use of improper and deceptive recruitment practices in connection with contracts and
subcontracts performed for the U.S. Army’s Logistics Civil Augmentation Program (LOGCAP) in
Afghanistan.

A recent “Fault Lines” documentary broadcast by the Al Jazeera television network raised troubling
allegations concerning your company’s recruitment of TCNs for work at U.S. military bases in
Afghanistan. These TCNs, who are mainly from India, Nepal, and other parts of South Asia, reportedly
paid a few hundred to several thousand dollars each to recruiters who supply foreign workers to
Ecolog, to obtain jobs at U.S. military bases.

Such recruiting fees are prohibited by 22 U.S.C. § 7104(g), Joint Contracting Command
Iraq/Afghanistan Clause 952.222-0001, and the zero-tolerance policy regarding trafficking in
persons outlined at FAR 22.1703 and Executive Order 13627. Moreover, the documentary alleged
that many of these foreign workers are housed in overcrowded conditions for long periods of time by
recruiters in Dubai or elsewhere, prior to being transferred to jobs at U.S. military bases in
Afghanistan.

My office has interviewed workers’ advocates and lawyers who indicate that TCN workers often
borrow substantial sums of money at high interest rates in their home countries in order to pay these
recruitment fees. In some cases, the substantial sums that the TCN workers borrow to pay these
fees will take many months of work to pay back. The high levels of indebtedness that often result
may make it virtually impossible for these TCNs to leave their jobs.
Officials representing Fluor, one of the prime contractors for which Ecolog recruits workers in
Afghanistan, have told SIGAR investigators that more than 2,400 of these TCN workers—who were
interviewed at random—reported to company officials that that they paid such recruiting fees. Ecolog
employees working at U.S. bases in Afghanistan have also reported to SIGAR agents that they have
paid recruiting fees.

SIGAR special agents in Afghanistan have gathered information on allegations of other improper
recruitment practices as well as mistreatment of TCNs working on U.S. military bases. To aid SIGAR
in its inquiry, please provide the following information and related documents:
    1. Please identify and provide copies of all Ecolog policies addressing human trafficking, and
       describe all efforts by Ecolog to detect and deter trafficking in connection with work on
       LOGCAP.
    2. Please identify which Ecolog officials are accountable for your company’s compliance with
       federal laws and regulations against human trafficking.
    3. Please identify any investigative process Ecolog undertakes when it finds evidence of human
       trafficking violations or related abuses involving TCNs.
    4. Please provide all records of Ecolog disclosing evidence of human trafficking to a contracting
       officer or other U. S. Government official. This response should include any records of Ecolog
       taking disciplinary action against a subcontractor, recruiter, employee, or agent for human
       trafficking violations.
    5. Please provide all records of communications between Ecolog and Fluor, DynCorp, or any
       other entity relating to the Al Jazeera network documentary “Fault Lines: America’s War
       Workers.” Records responsive to this request include, but are not limited to, e-mails,
       memoranda, letters, notes from telephone conversations, and any recordings or minutes
       made of meetings between Ecolog, Fluor, DynCorp and any other person, including any
       civilian or military employee of the U.S.
    6. Please list all recruitment firms which Ecolog uses to recruit TCNs for work in Afghanistan,
       the countries where these recruiters operate, and all efforts by Ecolog to ensure that these
       recruiters comply with federal laws against human trafficking.
    7. Please identify any instances of TCN employees recruited directly by Ecolog, or through a
       recruiter used by Ecolog, who were found to have been paid a different salary than that
       promised by the recruiter, or were sent to a different job location than that for which they
       were recruited.
    8. Please provide the number of TCN employees who have worked for Ecolog and/or its
       subcontractors in support of LOGCAP task orders in Afghanistan who were hired by Ecolog
       directly, and the number who were hired through subcontracts or by payments to
       independent recruiters.
    9. Please provide the total number of TCNs Ecolog has recruited to work on contracts
       supporting U.S. and coalition operations in Afghanistan and the number of recruits that
       remain there as of June 13, 2014.
    10. Please provide any records of trafficking complaints against Ecolog in the past two years, for
        any issues, including but not limited to, improperly restricting employee access to
        immigration and identification documents; and refusing or failing to pay return travel costs at
        the end of an employment contract. Include any complaints, and their resolution, that Ecolog
        has received through a company hotline or reported to Ecolog by any other means.



SIGAR-14-70-SP Inquiry Letter: Recruitment of Third Country Nationals for Afghan Work            Page 2
      11. Please make available for inspection all pay records for Ecolog’s TCN workers in Afghanistan
          for the past three years.
      12. Please provide the locations and names of any foreign worker holding facilities where TCNs
          recruited by your firm or its contract recruiters are housed. What is the longest amount of
          time that any TCN workers have been housed in these facilities before being dispatched to
          jobs in Afghanistan? Who inspects these facilities and are records kept of such inspections?
          What are your firm’s policies for the proper care and feeding of these TCN workers?


Please respond in writing to this request by June 27, 2014. Thank you in advance for your
cooperation. These requests are made pursuant to the Inspector General Act of 1978, as amended,
and section 1229 of the National Defense Authorization Act for Fiscal Year 2008, as amended.

Should you have any questions or need additional information, please have your staff contact Jack
Mitchell, Director of Special Projects at                             or                , or William
Gaertner, Associate General Counsel, at                               or                .


                                                                        Sincerely,




                                                                        John F. Sopko
                                                                        Special Inspector General
                                                                           for Afghanistan Reconstruction


CC:

Linda Dixon, CONUS Program Manager
 Combating Trafficking in Persons Task Force
 U.S. Department of Defense

Sam Yousef, CONUS Program Manager
 Combating Trafficking in Persons Task Force
 U.S. Department of Defense




SIGAR-14-70-SP Inquiry Letter: Recruitment of Third Country Nationals for Afghan Work                   Page 3
